BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Jesus
Gomez-Arzate, et al. v. United States of America, was
sent via Next Day Service to the U.S. Supreme Court,
and via Next day and e-mail service to the following
parties listed below, this 26th day of March, 2021:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
Michael Ian Garey
Counsel of Record
714 North Spurgeon Street
Santa Ana, California 92701
(714) 834-0950
mig995@aol.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati , Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 26, 2021.

&M
ei;~

Becker Gallagher Legal Publishin.g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, S'8te of Ohio
My Commission Expires
:ehr• 1:::rv 14, 2023

